        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Examination Report
North Carolina State Energy Office 
Energy Efficiency and Conservation
Block Grant Program Funds
Provided by the American Recovery
and Reinvestment Act of 2009




OAS-RA-13-09                        February 2013
                                 Department of Energy
                                   Washington, DC 20585
                                       February 19, 2013


MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ENERGY EFFICIENCY AND
               RENEWABLE ENERGY




FROM:                   Rickey R. Hass
                        Deputy Inspector General
                          for Audits and Inspections
                        Office of Inspector General

SUBJECT:                INFORMATION: Examination Report on "North Carolina State
                        Energy Office − Energy Efficiency and Conservation Block Grant
                        Program Funds Provided by the American Recovery and Reinvestment
                        Act of 2009"

INTRODUCTION AND OBJECTIVE

The attached report presents the results of an examination of the North Carolina State Energy
Office's (Agency) implementation of the American Recovery and Reinvestment Act of 2009
(Recovery Act) Energy Efficiency and Conservation Block Grant (EECBG) Program. The
Office of Inspector General (OIG) contracted with an independent certified public accounting
firm, Lopez and Company, LLP, to express an opinion on the Agency's compliance with Federal
laws, regulations and program guidelines applicable to the EECBG Program.

The Recovery Act was enacted to promote economic prosperity through job creation and
encourage investment in the Nation's energy future. As part of the Recovery Act, the EECBG
Program received $3.2 billion to develop, promote, implement and manage energy efficiency and
conservation projects and programs designed to reduce fossil fuel emissions, reduce total energy
use of the eligible entities, and improve energy efficiency in the transportation, building and
other appropriate sectors. The Agency received a $20.9 million competitive grant award that
was to be expended over an initial 3-year period from September 21, 2009 through
September 20, 2012. The Agency requested and received an extension of its grant to
March 2013.

OBSERVATIONS AND CONCLUSIONS

Lopez and Company, LLP, expressed the opinion that the Agency complied in all material respects
with the aforementioned requirements and guidelines relative to the EECBG Program for the period
September 21, 2009 through December 31, 2011. The report includes an advisory comment that
represents a control deficiency that was not significant enough to adversely affect the Agency's
ability to record, process, summarize and report data reliably, and is offered to Agency
management as an opportunity for improvement.
                                                 2


Specifically, the Agency's quarterly reports on jobs created and retained were incomplete. The
Agency did not ensure all sub-grantees submitted job reporting data in a timely manner and did
not make corrections to the reports as required. Further, the months included in the reports were
inconsistent with the periods required to be reported under the Recovery Act. The report also
points out that guidance on job reporting provided by the EECBG project officer was not
consistent with Program policies and procedures according to EECBG Program officials.

The report makes recommendations to the Agency to improve the administration of its EECBG
Program. The Agency provided comments that expressed agreement with the recommendations
and provided actions taken that addressed the issues identified. While these comments are
responsive to the recommendations, the Department of Energy (Department) needs to ensure the
actions are adequate to address the findings.

RECOMMENDATIONS

We recommend that the Assistant Secretary for Energy Efficiency and Renewable Energy
ensure:

    1. Appropriate action was taken by the Agency to address the job reporting issues
       identified in the attached report; and,

    2. EECBG Program project officers are well-versed in Recovery Act job reporting
       requirements before providing related guidance to grantees.

DEPARTMENT COMMENTS AND AUDITOR RESPONSE

The Department concurred with our recommendations outlined in this memorandum. The
Department stated the Agency had implemented a new process to ensure accurate reporting of
job numbers. Further, the Department noted it continues to provide guidance and training to
project officers to ensure they are knowledgeable in reporting requirements. The Department's
comments are included in their entirety in Attachment 2.

The Department's comments are responsive to our recommendations.

EXAMINATION-LEVEL ATTESTATION

Lopez and Company, LLP, conducted its examination in accordance with attestation standards
established by the American Institute of Certified Public Accountants, as well as those additional
standards contained in Government Auditing Standards, issued by the Comptroller General of the
United States. The examination-level procedures included gaining an understanding of the
Agency's policies and procedures and reviewing applicable Program documentation. The
procedures also included an analysis of activity progress, reimbursement drawdown requests,
and compliance with required reporting. Finally, an analysis of associated expenditure data was
conducted to test the allowability of payments.

The OIG monitored the progress of the examination and reviewed the report and related
documentation. Our review disclosed no instances in which Lopez and Company, LLP, did not
                                               3


comply, in all material respects, with the attestation requirements. Lopez and Company, LLP, is
responsible for the attached report dated October 9, 2012, and the conclusions expressed in the
report.

Attachments

cc: Deputy Secretary
    Acting Under Secretary for Energy
    Chief of Staff
                                                                             Attachment 1




                           EXAMINATION REPORT ON COMPLIANCE

                                                                  OF

        Recovery Act Energy Efficiency and Conservation Block Grant Program

                             State of North Carolina – State Energy Office

                                                             ____

                                                 PERFORMED FOR

                                    U.S. DEPARTMENT OF ENERGY
                                   OFFICE OF INSPECTOR GENERAL



                                                        Prepared by

                                            Lopez and Company, LLP

                                         Report Date: October 9, 2012



                                CONTRACT NUMBER: DE-IG0000017

                                   WORK ORDER NUMBER: 2011-08



14728 Pipeline Avenue▪ Suite E ▪ Chino Hills ▪ California 91709
Phone: 626-583-1116 ▪ Fax: 626-577-8439 ▪ www.lopezllp.com
                                                                Attachment 1 (continued)


                                   Table of Contents


INDEPENDENT ACCOUNT'S REPORT…………………………………………….……. 1

Section I   Description of the North Carolina State Energy Office Energy Efficiency and
            Conservation Block Grant Program……………………………………………….. 2

Section II Classification of Findings…………………………………………………………. 3

Section III Summary of Findings……………………………………………………………… 4

Section IV Schedule of Findings………………………………………………………………. 5

Section V Complete Management Response…………………………………………………. 7




                                                              Lopez and Company, LLP
           Attachment 1 (continued)




Page 1   Lopez and Company, LLP
                                                                        Attachment 1 (continued)


    Section I Description of the North Carolina State Energy Office Energy
              Efficiency and Conservation Block Grants Program
The State Energy Office (Agency) is one of 11 divisions within the North Carolina Department
of Commerce. The Agency is dedicated to ensuring a sustainable energy future for the citizens
of North Carolina. The Agency works to increase energy efficiency throughout the state, and
promote and increase the use of renewable energy and alternative fuels, along with serving as the
principal source of information for these energy areas.

Under the Energy Efficiency and Conservation Block Grant (EECBG) Program, grantees receive
assistance in developing, promoting, implementing, and managing energy efficiency and
conservation projects and programs. These projects and programs are designed to reduce fossil
fuel emissions, reduce total energy use of the eligible entities, and improve energy efficiency in
the transportation, building, and other appropriate sectors. As part of the American Recovery
and Reinvestment Act of 2009 (Recovery Act), the U.S. Department of Energy's (Department)
Office of Energy Efficiency and Renewable Energy received $3.2 billion in EECBG Program
funding. Of this amount, $2.7 billion was awarded through formula grants and $454 million was
allocated through competitive grants.

The Agency received a $20.9 million competitive EECBG grant award, which was to be
expended over a 3-year period from September 21, 2009 through September 20, 2012. It opted
to allocate these funds into four program categories: energy efficiency retrofits, technical
consulting to local governments, energy conservation in the transportation sector, and reduction
of greenhouse gases. The Agency requested and received an extension of its grant to March
2013.




                                                  Page 2              Lopez and Company, LLP
                                                                          Attachment 1 (continued)


                           Section II Classification of Findings

Material Weakness
For purposes of this engagement, a material weakness is a significant deficiency or combination
of significant deficiencies that results in more than a remote likelihood that a material
misstatement of the subject matter will not be prevented or detected. We had no findings
classified as material weaknesses.

Significant Deficiency
For purposes of this engagement, a significant deficiency is a deficiency in internal control, or
combination of deficiencies, that adversely affects the Agency's ability to initiate, authorize,
record, process, or report data reliably in accordance with the applicable criteria or framework,
such that there is more than a remote likelihood that a misstatement of the subject matter that is
more than inconsequential will not be prevented or detected. We had no findings classified as
significant deficiencies.

Advisory Comment
For purposes of this engagement, an advisory comment represents a control deficiency that is not
significant enough to adversely affect the Agency's ability to record, process, summarize, and
report data reliably.
Advisory comments represent matters that come to our attention during the course of the review,
and are offered to the Agency's management as an opportunity for improvement. Advisory
comments, if any, are provided along with recommendations and discussion of the significance
of the comments.




                                                   Page 3              Lopez and Company, LLP
                                                                   Attachment 1 (continued)


                           Section III Summary of Findings



Area/Finding


          Advisory Comment
Financial Management and Reporting
      IV.1     Jobs Created and Retained Data Included In Recovery Act Reports Were Not
               Complete




                                               Page 4            Lopez and Company, LLP
                                                                          Attachment 1 (continued)


                              Section IV Schedule of Findings

FINANCIAL MANAGEMENT AND REPORTING

IV.1    Jobs Created and Retained Data Included In Recovery Act Reports Were Not
        Complete (Advisory Comment)

Condition
The Agency's quarterly reports on jobs created and retained were incomplete because sub-
recipients did not timely provide jobs information to the Agency and/or did not report jobs on the
proper calendar quarter. Based on a review of 20 sub-recipient quarterly jobs reports reviewed,
we found:

   •    Five reports were submitted after the due date to the Agency and therefore, the jobs data
        were not included in the Agency's report. The Agency did not make corrections to
        quarterly reports as required by the Recovery Act. Agency officials stated that they only
        made corrections to its quarterly reports if instructed by the Department’s project officer;
        otherwise, they would include the information in the next quarter.

   •    The months included for 16 reports were inconsistent with the periods required to be
        reported under the Recovery Act. The Recovery Act required recipients to report jobs
        each year for the quarters ending March, June, September and December. However, the
        Agency and its sub-recipients reported data for different quarterly periods. For example,
        for the calendar quarter ending September, the reports included jobs data from June
        through August instead of July through September.

EECBG Program Notice 10-07C and Office of Management and Budget (OMB) Memorandum
M-10-08, allow grantees to adjust job reports, but only for the most recent quarter. The OMB
Memorandum further states that guidance related to revising jobs data from previous quarters
would be provided at a later date.

Cause
The Agency indicated that sub-recipients often had difficulty obtaining the required jobs data
from contractors on a timely basis. Further, the Agency did not have a formal process to record
and track timely submissions of jobs data received from sub-recipients and lacked sufficient
staffing resources to perform the necessary tracking and follow-up in a timely manner.
Additionally, the Agency determined that it would delay sub-recipient jobs reporting by one
month to allow sub-recipients time to accumulate and transmit accurate data for the required
quarterly periods. Although the Agency did not get formal approval from the Department's
project officer, it distributed a letter to its sub-recipients instructing them to use the amended
methodology. As a result of our inquiry on this matter, the Agency contacted the project officer




                                                   Page 5              Lopez and Company, LLP
                                                                           Attachment 1 (continued)


                          Section IV Schedule of Findings (Cont.)

and received a written confirmation that this reporting method was acceptable. However, based
on our discussions with Department EECBG officials, the approval was not consistent with
Program policies and the recipient should have reported jobs in accordance with Recovery Act
requirements.

Effect
Because of incomplete sub-recipient jobs information and improperly reporting the calendar
quarters, the Agency presented data that was not accurate for the required reporting periods.

Recommendation
We recommend the Agency:
1.1      Develop and implement policies and procedures to ensure that jobs data is received from
         sub-grantees timely and the data is properly included in the Agency’s reports;

1.2      Revise its procedures to require sub-recipients to report jobs information on the proper
         calendar quarter to ensure compliance with Recovery Act reporting requirements;

1.3      Ensure jobs reporting data for prior quarters are recalculated to reflect complete
         information from sub-recipients and the appropriate calendar quarters; and,

1.4      Maintain documentation reflecting these calculations for future adjustments to the prior
         quarters pending guidance from OMB.

Management Response
Management agreed with the finding and recommendations. Based on its response, the Agency
implemented a new policy to ensure all jobs reporting data was entered correctly, including
requiring sub-grantees to report jobs on the proper calendar quarter. In addition, the Agency will
maintain documentation of recalculations for future adjustments.




                                                    Page 6              Lopez and Company, LLP
                                Attachment 1 (continued)


Section V Complete Management Response




                   Page 7        Lopez and Company, LLP
                                       Attachment 1 (continued)

Section V Complete Management Response (Cont.)




                       Page 8        Lopez and Company, LLP
                      Attachment 2

DEPARTMENT COMMENTS




      Page 9
          Attachment 2 (continued)




Page 10
                                                                 IG Report No. OAS-RA-13-09


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                            Date

Telephone                                       Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
Internet at the following address:

               U.S. Department of Energy Office of Inspector General Home Page
                                      http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
